U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Savannah Rolle v. United States of America,
S.Ct. No. 20-5499

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 21,
2020, and placed on the docket on August 26, 2020. The government’s response is due on
September 25, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 26, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5499
ROLLE, SAVANNAH
USA

CONRAD BENJAMIN KAHN
FEDERAL DEFENDER ATTORNEY
201 S. ORANGE AVE.
STE 300
ORLANDO, FL 32801
407-648-6338
CONRAD_KAHN@FD.ORG

